                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                            CLOSEOUT MEMORANDUM

Case Number: 1-11040014                                                                     Page 1 of 1



         We received an allegation that a company1 submitted a proposal containing text plagiarized from
         a student's dissertation. We did not substantiate that allegation, but in the course of conducting
         the plagiarism investigation and reviewing other proposals submitted by the company and the
         individuals involved, we concluded that the company's owner2 falsely certified that the original
         principal investigator (PI) 3 on a company award4 was primarily employed by the company at the
         time of the award. The owner and the new PI (his wife) also reported some results in the
         company's final report on that award that the owner previously reported to NSF as the PI on an
         award5 made to a different institution6 with which the owner was affiliated. Furthermore, in
         response to our request for company financial information, the company owner created
         backdated employment agreements and timesheets to support salary paid to him and company
         employees.

         The matter was presented to and accepted by a U.S. Attorney's Office. 7 The company owner
         agreed to a pretrial diversion suspending prosecution for a violation of 18 U.S.C. § 641. Under
         the terms of the pretrial diversion, the owner agreed to report monthly to the U.S. Probation and
         Pretrial Services Office and he agreed to not apply for NSF funding for a period of two years.
         The owner returned $20,718.70 to NSF, which represented the salary payments to him and his
         wife under the company's award..

         This case is closed with no further action taken.




NSF OIG Form 2 (11/02)
